                                                          IG-01-006




AUDIT
                             IMPACT OF THE BOEING COMPANY'S
REPORT                           RESTRUCTURING ON NASA
                                      November 27, 2000




                           OFFICE OF INSPECTOR GENERAL
National Aeronautics and
Space Administration
Additional Copies

To obtain additional copies of this report, contact the Assistant Inspector General for
Auditing at (202) 358-1232, or visit www.hq.nasa.gov/office/oig/hq/issuedaudits.html.

Suggestions for Future Audits

To suggest ideas for or to request future audits, contact the Assistant Inspector General
for Auditing. Ideas and requests can also be mailed to:

       Assistant Inspector General for Auditing
       Code W
       NASA Headquarters
       Washington, DC 20546-0001

NASA Hotline

To report fraud, waste, abuse, or mismanagement contact the NASA Hotline at (800)
424-9183, (800) 535-8134 (TDD), or at ww.hq.nasa.gov/office/oig/hq/hotline.html#form;
or write to the NASA Inspector General, P.O. Box 23089, L’Enfant Plaza Station,
Washington, DC 20026. The identity of each writer and caller can be kept confidential,
upon request, to the extent permitted by law.

Reader Survey

Please complete the reader survey at the end of this report or at
http://www.hq.nasa.gov/office/oig/hq/audits.html.




Acronyms

CAS            Cost Accounting Standards
DCAA           Defense Contract Audit Agency
DCMA           Defense Contract Management Agency
DFARS          Defense Federal Acquisition Regulation Supplement
DoD            Department of Defense
FAR            Federal Acquisition Regulation
W                                                                              November 27, 2000


TO:              A/Administrator

FROM:            W/Inspector General

SUBJECT:         INFORMATION: Impact of the Boeing Company's Restructuring on
                 NASA
                 Report Number IG-01-006


The NASA Office of Inspector General (OIG) has completed an audit of the Impact of
the Boeing Company’s (Boeing) Restructuring on NASA. We performed the audit to
determine whether Boeing’s restructuring was executed in accordance with Federal
guidance and was beneficial to NASA. We found that while Boeing handled the
restructuring in accordance with Federal requirements, it has not been beneficial to
NASA. Boeing’s commercial and defense customers will primarily benefit from its
restructuring, changes in accounting practices, and cost allocation methods, while NASA
will absorb most of the costs. 1 We also found reasons to question the potential savings
accruing to NASA that Boeing reported in the advance agreement 2 with the Defense
Contract Management Agency (DCMA). 3 The audit identified potential monetary
benefits of $64.7 million that NASA can recover through future contract cost reductions
resulting from the DCMA’s efforts to mitigate the impacts of accounting and cost
allocation changes Boeing implemented as part of its restructuring. The audit also
identified NASA’s need for legislation requiring contractors involved in restructurings to
provide NASA the same consideration (savings) as that provided to the Department of
Defense (DoD).




1
  Appendix C lists NASA’s major contracts with Boeing that experienced cost increases as a result of
Boeing’s restructuring, changes in accounting practices and cost allocation methods.
2
  The Federal Acquisition Regulation (FAR) and the Defense Federal Acquisition Regulation Supplement
(DFARS) permit contractors to enter into advance agreements with the Government for the treatment of
special or unusual costs.
3
  The DCMA is the contract manager for the Department of Defense (DoD). The DCMA's mission is to
ensure Federal acquisition programs, supplies, and services are delivered on time and within cost and meet
performance requirements. DCMA provides to DoD components and to other Government agencies
(including NASA) contract management and administration services that consist of on-site surveillance and
program-specific processes that cannot be monitored by off-site buying agencies.
                                                                                                         2

Background

As a result of its acquisition of the Rockwell International Corporation (Rockwell)
Aerospace and Defense Units and its merger with the McDonnell Douglas Corporation
(McDonnell Douglas), Boeing signed an advance agreement with the DCMA in
December 1999. The advance agreement permitted Boeing to charge restructuring costs
to Government contracts with the expectation that future Government savings would be
at least twice the amount of incurred restructuring costs. Boeing’s cost proposal, which
served as the basis for the advance agreement, identified total potential gross savings of
$839.3 million of which $376 million accrued to the DoD. The total savings included
$279.6 million related to the closing and transfer of operations from a Boeing (formerly
Rockwell International) facility in Downey, California, that primarily supported NASA
missions. NASA’s total net savings under the agreement were projected to be $50
million. 4

Prior to initiating the advance agreement with the DCMA, Boeing also adopted changes
to its accounting and cost allocation methods as a result of its acquisition of Rockwell
and its merger with McDonnell Douglas. Those changes had major effects on
Government contracts, particularly on NASA contracts in that the accounting and cost
allocation changes exceed the projected restructuring savings for NASA. However,
neither Boeing nor the DCMA addressed the accounting changes and their impacts when
developing and negotiating the advance agreement.

The $64.7 million in potential monetary benefits represents the Defense Contract Audit
Agency's (DCAA) 5 and the DCMA's analysis of the cost to NASA, resulting from
Boeing’s accounting and cost allocation changes, that the Agency could recover from




4
  We found that NASA’s share of projected savings resulting from Boeing’s restructuring was not
equitable. Boeing’s cost proposal identified a net savings of $219 million (36 percent of the total net
savings of $601 million) as a result of transferring operations from and closing the Downey, California,
facility. Johnson Space Center (Johnson) procurement officials told us that historically, 80 percent of the
workload at the Downey facility was NASA-related. However, Boeing’s cost proposal identified only $50
million (8 percent) of the $601 million of total net savings as accruing to NASA. Based on the historical
percentage of NASA work performed at the Downey facility, NASA should have logically expected to
receive about $175 million (80 percent of the $219 million savings from closing the Downey facility.)
5
  The DCAA is responsible for performing all contract audits for the DoD and for providing accounting and
financial advisory services for contracts and subcontracts to DoD procurement and contract administration
activities. The DCAA also provides contract audit services to other Government agencies including
NASA.
                                                                                                         3

Boeing. 6 Implementation of our recommendations will ensure that the Agency realizes
this cost recovery through offsets to contract billings, which will have a positive effect on
NASA’s budget. 7

Recommendations

We recommended the Associate Administrator for Procurement pursue legislation for
NASA similar to that provided the DoD regarding business restructurings and monitor
any future restructurings to ensure that the 2-to-1 savings-to-cost ratio is realized. 8 We
also recommended that the Associate Administrator coordinate with the DCAA to
determine whether actual savings are accruing to NASA from the advance agreement and
to ensure that DCAA segregate any NASA savings in its planned audit of Boeing’s DoD
business segments. We further recommended the Associate Administrator participate in
the negotiations between the DCMA and Boeing to mitigate the adverse effects of the
accounting and cost allocation changes. Implementation of these recommendations will
help ensure that NASA's interests are adequately protected not only with respect to
Boeing's restructuring, but also in the event of future restructuring by NASA's
contractors.

Management’s Response and OIG Evaluation

Management concurred with all the recommendations, but its proposed actions are
responsive to only two of the six recommendations. Management’s planned corrective
actions are responsive in relation to pursuing legislation for NASA similar to that
provided the DoD regarding business restructurings and to monitor future restructurings
to ensure the savings-to-cost ratio is realized. In future restructurings involving NASA
contracts, management intends to pursue an agreement with the DoD to achieve the same
2-to-1 savings-to-cost ratio required for DoD.

Management did not provide specific corrective actions or implementation dates in
relation to (1) coordinating with the DCAA to obtain cost savings data pertaining
specifically to NASA and (2) participating in the negotiations between the DCMA and
Boeing to mitigate the impacts of the accounting and cost allocation changes. We have
asked management to provide specific corrective actions and implementation dates.
Management also did not address the potential monetary benefits of $64.7 million.


6
  The DCMA Boeing Defense Corporate Executive told us that NASA should recover $64.7 million from
Boeing. DCMA determined the amount using audit information DCAA developed. See Appendix F for
more details.
7
  DCMA officials told us that under the offset method, Boeing would continue to bill NASA for contract
work, but NASA would not make contract payments on the billings until the amounts billed equaled the
offset amount negotiated.
8
  As specified by the DFARS, the 2-to-1 savings-to-cost ratio applies only to DoD contracts. DCMA
officials told us that Boeing and the DCMA agreed to treat non-DoD customers the same as DoD in
negotiating the advance agreement
                                                                                         4

Management commented extensively on our findings (see Appendix G). We respond to
those comments in Appendix H of the report. Management’s basic position is that we did
not understand the statutory and regulatory requirements associated with business
restructuring and cost accounting changes. As detailed in the report, we are well aware
of the statutory and regulatory requirements for those areas. Although Boeing and the
DCMA handled the restructuring and cost accounting changes as two separate and
distinct events, they were not mutually exclusive, and taken together had an adverse
effect on NASA. Our report describes and quantifies that effect on NASA and provides
some methods for relief.

Details on the status of the recommendations are in the finding section of the report.




[original signed by]
Roberta L. Gross

Enclosure
Final Report on Audit of Impact of the Boeing Company’s Restructuring on NASA
             FINAL REPORT
AUDIT OF IMPACT OF THE BOEING COMPANY'S
         RESTRUCTURING ON NASA
W                                                                     November 27, 2000


TO:           H/Associate Administrator for Procurement

FROM:         W/Assistant Inspector General for Auditing

SUBJECT:      Final Report on Audit of Impact of the Boeing Company's Restructuring
              on NASA
              Assignment Number A0003900
              Report Number IG-01-006


The subject final report is provided for your use and comments. Our evaluation of your
response is incorporated into the body of the report and Appendix H.

We ask that management provide additional comments on recommendations 1, 2, 5, and
6 by January 26, 2000. The additional comments should provide the specific corrective
actions and implementation dates in relation to (1) requesting the DCAA to audit and
validate the actual savings accruing to NASA from Boeing’s restructuring,
(2) determining whether the actual restructuring savings exceed costs by a ratio of
2-to-1, (3) the specific role the Agency intends to take in the negotiations to mitigate the
impacts from Boeing’s accounting changes, and (4) requesting DCAA to provide a
specific breakout of the effects to NASA from DCAA’s audit of Boeing’s business
segments. We also ask that management address the $64.7 million in potential monetary
benefits associated with recommendation 5. The corrective actions planned for
recommendations 3 and 4 are responsive. Please notify us when action has been
completed on those recommendations, including the extent of testing performed to
ensure corrective actions are effective. All recommendations will remain open for
reporting purposes until agreed-to corrective actions are completed.

If you have questions concerning the report, please contact Mr. Kevin J. Carson,
Program Director, Safety and Technology Audits, at (301) 286-0498, or Mr. Karl Allen,
Program Manager, at (202) 358-2595. We appreciate the courtesies extended to the
audit staff. The final report distribution is in Appendix I.


[original signed by Lee Ball for]
Russell A. Rau

Enclosure
                                                      2

cc:
B/Chief Financial Officer
B/Comptroller
BF/Director, Financial Management Division
G/General Counsel
JM/Acting Director, Management Assessment Division
L/Associate Administrator for Legislative Affairs
M/Associate Administrator for Space Flight
AA/Director, Lyndon B. Johnson Space Center
AA/Director, John F. Kennedy Space Center
AA/Director, George C. Marshall Space Flight Center
                                  3

bcc:
AIGA, IG Chrons
JSC/BD5/Audit Liaison Officer
KSC/QA-D/Audit Liaison Officer
MSFC/BE01/Audit Liaison Officer
W/K. Carson
   K. Allen
   L. Brickhouse
                           NASA Office of Inspector General

IG-01-006                                                                      November 27, 2000
 A0003900

                            Impact of the Boeing Company’s
                               Restructuring on NASA
Introduction
On December 17, 1999, Boeing entered into an advance agreement with the DCMA. The
advance agreement allowed Boeing to claim the costs to reorganize and restructure as a
result of its previous acquisitions and mergers, with the expectation that future savings to
the Government would be at least twice the amount of the restructuring costs incurred.
We performed this audit to address the resulting disparities between the savings accruing
to Boeing and the DoD, and those accruing to NASA. The objectives of the audit were to
determine whether:

•   the advance agreement negotiated by the DCMA met all Federal requirements and

•   NASA’s interests were adequately considered and addressed under Boeing’s
    restructuring.

Appendix A contains further details on the audit objectives, scope, and methodology.

Results in Brief
NASA did not benefit from Boeing’s restructuring and its advance agreement with the
DCMA. Boeing’s DoD customers could realize potential savings of $376 million, while
NASA could incur as much as $115 million in additional costs resulting from Boeing’s
acquisition of the Rockwell International Corporation (Rockwell) Aerospace and Defense
Units and its merger with the McDonnell Douglas Corporation (McDonnell Douglas).
The additional costs may accrue to NASA because it does not have guidance and
legislation9 comparable to that for the DoD regarding external business restructurings and
because NASA was not closely involved in reviewing and negotiating Boeing’s
restructuring proposal. Through active participation in negotiations with the DCMA and
Boeing, NASA has an opportunity to recover about $64.7 million through future contract
cost reductions, which would mitigate some of the impact of Boeing’s restructuring and
reorganization on the Agency.




9
 The Defense Federal Acquisition Regulation Supplement (DFARS) is the implementing guidance for
DoD concerning contractor restructurings as a result of legislation provided under Section 8115 of the DoD
Appropriations Act of 1997 (Public Law 104-208).

            ADMINISTRATIVELY CONTROLLED INFORMATION-PROPRIETARY
                            FOR OFFICIAL USE ONLY
Background

Boeing became the largest aerospace company in the world and NASA’s largest
contractor after its 1996 acquisition of the Aerospace and Defense Units of Rockwell and
its 1997 merger with McDonnell Douglas. After the acquisition and merger, Boeing
asked the DCMA to execute an advance agreement under which the company could
charge the costs of reorganizing and restructuring to Government contracts, under the
provisions of the Federal Acquisition Regulation (FAR) and the Defense Federal
Acquisition Regulation Supplement (DFARS). The regulations permit contractors to
enter into advance agreements with the Government and allow the contractors to
accumulate and bill restructuring costs to the Government as long as the savings from the
restructuring exceed costs by a ratio of 2-to-1.10 The DCMA's December 17, 1999,
advance agreement with Boeing allowed Boeing to be reimbursed for its costs to
restructure, reorganize, and consolidate operations of the three former separate business
entities (Boeing, Rockwell, and McDonnell Douglas).

Boeing’s cost proposal, which served as the basis for the advance agreement, identified
total potential gross savings of $839.3 million as a result of the restructuring, of which
$376 million would accrue to the DoD. The total savings of $839.3 million included
$279.6 million related to the closing and transfer of operations from a former Rockwell
facility in Downey, California, that had primarily supported NASA missions. The cost
proposal identified NASA’s total net savings as $50 million. Appendix B of the report
provides specific details of the cost proposal’s beneficiaries, potential savings, and
projected costs.

Prior to DCMA’s approval of the restructuring proposal, Boeing also adopted accounting
changes and revised its cost allocation methods. These changes and revisions resulted in
significant cost redistributions among Boeing's various business units. The changes and
revisions in accounting procedures and allocation methods had a greater cost impact on
NASA than did the projected savings from the advance agreement (see Appendix C).

Appendix D of the report provides additional information on Boeing’s acquisition,
merger, and restructuring. Appendix E contains a summary of prior NASA OIG audits
related to contractor restructurings.

Boeing Company Restructuring

Finding. NASA has not benefited from Boeing’s restructuring and its advance
agreement with the DCMA. Specifically, NASA (1) received an inequitable share of the
projected restructuring savings and (2) has little assurance that it will realize any actual
savings from Boeing’s restructuring. In addition, NASA could incur increased costs of as


10
  As specified by the DFARS, the 2-to-1 savings-to-cost ratio applies only to DoD contracts. DCMA
officials told us that Boeing and the DCMA agreed to treat non-DoD customers the same as DoD in
negotiating the advance agreement.


                                                  2
much as $115 million due to changes in accounting procedures and cost allocation
methods related to Boeing's restructuring. The Agency has not benefited because
(1) NASA does not have the legislation and implementing guidance similar to DoD’s
regarding external business restructurings, (2) NASA was not actively involved in
reviewing and negotiating Boeing's restructuring proposal, and (3) the DCMA considered
Boeing’s accounting and cost allocation changes separate and distinct from its
restructuring efforts and did not include these items in negotiating the advance
agreement. As a result, Boeing’s commercial and defense customers will primarily
benefit from its restructuring, changes in accounting practices, and cost allocation
methods while NASA will absorb most of the costs. NASA has an opportunity to recover
about $64.7 million in contract offsets as a result of DCMA’s efforts to mitigate some of
these cost increases. The contract offsets are actual dollar savings for NASA and have a
positive impact on the Agency’s budget. 11

Guidance on Restructuring and Advance Agreements

The FAR, Part 31, section 109, "Advance Agreements," requires that contracting officers
and contractors seek advance agreements on the treatment of special or unusual costs.
The FAR also states that an advance agreement may be negotiated with a particular
contractor for a single contract, a group of contracts, or all the contracts of a contracting
office, an agency, or several agencies. Further, before negotiating an advance agreement,
the Government negotiator shall:

                 (1) determine if other contracting offices inside the agency or in other
                 agencies have a significant unliquidated dollar balance in contracts with
                 the same contractor;

                 (2) inform any such office or agency of the matters under consideration
                 for negotiation; and

                 (3) as appropriate, invite the office or agency and the responsible audit
                 agency to participate in prenegotiation discussions and/or in the
                 subsequent negotiations.

The DFARS, section 231.205-70, "External Restructuring Costs," provides further
guidance on restructuring costs and states:

                 . . . for business combinations occurring after October 1996, the
                 Undersecretary of Defense for Acquisition, Technology, and Logistics
                 must certify that projections of future restructuring savings resulting to
                 DoD from the business combination are based on audited cost data and
                 the audited projected savings for the DoD will either exceed the costs


11
   DCMA officials indicated that under the offset method (once the amount is negotiated), Boeing would
continue to bill NASA for contract work. Conversely, NASA would not make contract payments on the
billings until the amounts billed equaled the offset amount negotiated. DCMA officials indicated this
method is preferable to having Boeing issue a check for the offset amount. A check would be deposited
directly into the U.S. Treasury, and while the Government would benefit as a whole, there would be no
direct benefit to NASA.


                                                     3
                 allowed by a factor of at least 2-to-1 or that the business combination
                 results in the preservation of a critical capability that might otherwise
                 be lost to DoD.

NASA has no legislation equivalent to that in Public Law 104-208 or guidance to parallel
that in the DFARS regarding business restructurings. Further, the NASA FAR
Supplement does not address business restructurings and advance agreements. Thus, if
an external restructuring affects both DoD and non-DoD customers, there is no
requirement that effects on non-DoD customers be addressed as long as the 2-to-1
savings-to-cost ratio is realized for the DoD.

The NASA FAR Supplement contains provisions for Agency representatives to
participate with DoD in situations involving NASA’s interests. Specifically, the NASA
FAR Supplement Subpart 1842.705-1(a)(i) states:

                 Since many NASA contractors are under DoD’s final overhead rate
                 determination procedure, NASA’s policy is to participate jointly with
                 DoD for those companies where NASA has a major financial interest.
                 The NASA participant shall be a representative from that installation
                 having the predominance of NASA work.

The Code of Federal Regulations, Title 48, Chapter 99, "Cost Accounting Standards
Board, Office of Federal Procurement Policy, Office of Management and Budget,"
requires certain contractors and subcontractors to comply with the Cost Accounting
Standards (CAS) by providing written disclosure statements and to consistently follow
the company's disclosed accounting practices. The CAS apply only to negotiated
contracts and subcontracts. Compliance with the CAS is mandatory for all executive
branch agencies and for contractors and subcontractors in estimating, accumulating, and
reporting costs in connection with pricing and administration and settlement of disputes
concerning all negotiated prime contract and subcontract procurements with the U.S.
Government in excess of $500,000.

NASA’s Share of Restructuring Savings

NASA’s share of projected savings resulting from Boeing’s restructuring was not
equitable. Boeing’s cost proposal served as the basis for the advance agreement and
identified a net savings of $219 million (36 percent of the total net savings of $601
million) as a result of transferring operations from and closing its Downey, California,
facility. 12 Johnson Space Center (Johnson) procurement officials told us that historically,
about 80 percent of the workload at the Downey facility was NASA-related and
estimated the total dollar value of the NASA work performed at the facility at about $8
billion. However, Boeing’s cost proposal identified only $50 million (8 percent) of the
$601 million of total net savings as accruing to NASA. Based on the historical


12
  The heritage Boeing North America portion of the company (formerly Rockwell International-
Rocketdyne) operated a facility in Downey, California, where the Space Shuttle fleet was conceptualized,
designed, and built beginning in the early 1970’s.


                                                    4
percentage of NASA work performed at the Downey facility, NASA should have
logically expected to receive about $175 million (80 percent of the $219 million savings
from closing the Downey facility) in net savings from the facility closure.

DCMA representatives told us the savings accruing to NASA were not based on the
historical percentage of NASA work performed at Downey. Instead, the NASA savings
were based on the projected percentage of work to be performed at the facilities to which
Boeing transferred the work. The majority of work performed at the Downey facility was
transferred to Boeing’s Huntington Beach, California, facility. DCMA representatives
stated that the Huntington Beach facility primarily performed DoD-related work prior to
the transfer of NASA work that had been performed at the Downey facility. After the
transfer, NASA’s activities represented only about 45 percent of the Huntington Beach
facility’s total workload. In addition, the costs to transfer the NASA work to Huntington
Beach reduced the projected net savings even further. As a result, Boeing’s Commercial
Aircraft Group and its DoD business segments (the Military Aircraft and Missiles Group
and the DoD business base of the Space and Communications Group) realized more
savings from closing the Downey facility than did NASA, even though historically,
NASA contracts provided the majority (80 percent) of the workload for the facility.

Actual versus Projected Savings

The actual savings realized from Boeing’s restructuring could be much less than Boeing’s
projected savings. Specifically, neither the DCMA nor the Defense Contract Audit
Agency (DCAA) requires Boeing to identify and report actual restructuring savings.
Further, the actual restructuring costs could be much higher than those projected. DCMA
representatives told us that they do not request Boeing to provide actual savings figures
and that the DCAA does not require actual savings data for its audits. Rather, DCAA
audits the projected savings and determines whether Boeing followed the methodologies
outlined in its cost proposal in determining the savings amounts. As further evidence that
the savings are only estimates, the DCAA does not review all the individual business
elements 13 supporting the annual projected savings figures. DCMA officials told us that
DCAA reviewed 19 of the 60 business elements since the 19 elements accounted for
more than 90 percent of the annual reported savings.

In addition to the actual savings being less than projected, the restructuring
implementation costs could be higher than those used to negotiate the advance
agreement. While the implementation costs under the advance agreement will be




13
   The 60 business elements were all the locations at which Rockwell International, McDonnell Douglas,
and Boeing had facilities prior to Boeing’s acquisition and merger. Boeing’s restructuring proposal
consolidated, transferred, or discontinued operations from a number of the sites. The Downey, California,
site is one such example.


                                                    5
amortized 14 through 2003, the advance agreement also contains a negotiated cost ceiling
that is $90.3 million more than the implementation costs used to determine projected
restructuring savings. Thus, until completion of restructuring amortization (2003), the
actual implementation costs will not be known. Consequently, the actual restructuring
savings could be much less than Boeing’s projections due to higher than anticipated
implementation costs.

The procedures previously discussed do not provide NASA with reasonable assurance
that actual savings are being generated. Unless NASA asks Boeing and DCAA to
determine actual savings, the Agency cannot be assured that it is realizing any savings
from the restructuring. NASA should request that DCAA audit and determine whether
actual savings are accruing to the Agency and to ensure that NASA’s savings exceed the
restructuring costs by a 2-to-1 ratio.

Changes in Accounting Procedures and Cost Allocation Methods

Boeing implemented accounting and cost allocation changes in December 1998 (prior to
the restructuring advance agreement) as a result of its acquisition of Rockwell and its
merger with McDonnell Douglas. These changes could result in an additional $115
million cost increase to NASA. The accounting changes included changes in
capitalization and depreciation methods15 while the change in cost allocation methods
involved a change from a total-cost-input basis to a value-added base method of cost
allocation. 16 The change in cost allocation methods had the most significant impact on
Boeing’s Space and Communications Group, which is the company’s business segment
that provides support to NASA. Boeing’s first estimate of the total impact to the Space
and Communications Group resulting from the accounting changes and changes in cost
allocation methodology was $128 million; of that amount, Boeing estimated NASA’s
share of the costs to be $115 million. 17




14
   Boeing's cost proposal supporting the advance agreement provided for 20 percent of the estimated total
indirect costs to be amortized (charged to customers) annually over a 5-year period beginning in 1999. At
the end of the 5-year period, the total amount amortized will be the lesser of the actual indirect costs
incurred or the indirect cost ceiling negotiated by DCMA ($327.9 million).
15
   Capitalization refers to the accounting treatment for assets. Specifically, when an asset is acquired and
placed into service and if it has a lifespan of several years, its cost is usually divided over the number of
years it is expected to be in service. Depreciation is the yearly proportionate charge of the acquisition cost.
After acquiring Rockwell International's Space and Defense units and merging with McDonnell Douglas,
Boeing implemented a standard as to when assets were placed into service (capitalized) and when the
charges for the assets began (depreciated). Prior to the acquisition and merger, capitalization and
depreciation methods were different for each of the heritage companies.
16
   The total cost input base of allocation is all costs (direct and indirect) charged to final cost objectives
(that is, contracts), excluding incoming intercompany work authorization costs, cost of money, and general
and administrative expense. The value-added base allocation method is the total cost input base less direct
material and subcontract costs.
17
   We obtained this information from Boeing’s presentation, "Merger Overview," given at NASA
Headquarters on March 28, 1999.


                                                       6
Legislation and Implementing Guidance Regarding External Business
Restructurings

NASA does not have legislation and implementing guidance for external business
restructurings similar to the legislation and guidance applicable to DoD. There is no
legislative authority or guidance (as provided in the DFARS) for NASA to benefit similar
to the DoD. Further, the NASA FAR Supplement has no provisions addressing
contractor restructurings or advance agreements, and there is no requirement for the
restructurings to generate a savings-to-cost ratio of at least 2-to-1. Even though Boeing
and the DCMA agreed to provide NASA equitable treatment under the advance
agreement, NASA’s share of the potential savings is minimal. Therefore, NASA should
pursue legislation for the Agency similar to that provided to the DoD requiring that
external restructurings generate NASA a savings-to-cost ratio of at least 2-to-1.

NASA Involvement in the Restructuring Proposal

NASA did not actively participate in the development or negotiation of the advance
agreement. NASA’s participation was limited even though DCMA representatives met
with Johnson procurement officials and invited a NASA Headquarters division director to
review the agreement prior to its implementation. DCMA representatives told us that
they did not invite NASA to participate in the review and negotiation of the advance
agreement, but were aware of NASA’s concerns for fair and equitable treatment. Even
though a NASA Headquarters division director had the opportunity to review the advance
agreement before it was signed, Boeing had not identified or presented the total impact of
the restructuring on NASA. For example, details regarding the projected savings from
closing the Downey, California, facility were not addressed in the advance agreement,
but were included as 1 of 21 Work Breakdown Structures in an appendix to the cost
proposal supporting the advance agreement. Furthermore, the effects of the accounting
and cost allocation changes were not made known until March 1999. 18 In accordance
with the provisions of FAR Part 31, Section 109, NASA should have had the opportunity
to help develop and negotiate the advance agreement and provide an opinion on the
potential savings and impacts. Instead, NASA had a limited opportunity to review the
cost proposal/advance agreement prior to its implementation and without full knowledge
of the potential savings and impacts. NASA should take action to participate in any
future restructurings involving Agency contractors and ensure the agreements provide a
2-to-1 savings-to-cost ratio for NASA.

Accounting Procedures and Cost Allocation Changes Not Considered Part of
Restructuring

Boeing adopted its revised cost accounting and cost allocation procedures in December
1998. Boeing made these changes to standardize procedures throughout the company.
Although Boeing made the changes as a result of the acquisition of Rockwell and the
18
 Boeing’s presentation entitled "Space and Communications Group Home Office Costs Review," on
March 12, 1999, was the first discussion of the impact of the accounting and cost allocation changes to
NASA.


                                                     7
merger with McDonnell Douglas, DCMA excluded the changes from the advance
agreement negotiations because they did not meet DCMA's interpretation of the DFARS
restructuring activities definition of:

                non-routine, non-recurring or extraordinary activities to combine
                facilities, operations, or workforce, in order to eliminate redundant
                capabilities, improve future operations and reduce overall costs.

DCMA officials also told us they considered the changes to be routine accounting
practice modifications, not restructuring activities as defined by the DFARS. In our
opinion, the Boeing changes in accounting and cost allocation procedures were not
routine, were made to facilitate the company's restructuring, and should have been
considered in determining the savings-to-cost ratio used to justify the advance agreement.
In February 1999, the DCMA asked DCAA to determine whether Boeing’s accounting
changes represented “improved cost accounting, accommodated operational economies
and efficiencies, or are necessary given a particular organizational structure
notwithstanding the cost impact of such changes on specific contracts or types of
contracts.” In a March 1999 letter to the DCMA, the DCAA stated that the changes were
not considered desirable or necessary, did not represent operational economies or
efficiencies, and were not necessary to meet Boeing’s organizational structure.
Additionally, in a February 2000 audit report, 19 the DCAA concluded that the changes
were not desirable to the Government because they appeared to have shifted costs from
commercial to Government work, specifically to NASA contracts.

A comparison of the effects of the accounting and cost allocation changes to the projected
savings from the advance agreement shows that NASA’s savings do not offset its
increased costs. Boeing uses the savings from the restructuring efforts and increased
costs due to the change in accounting and cost allocation practices to determine contract
forward pricing rates. Therefore, DCMA should use the effects of the changes to
determine the actual savings resulting from the advance agreement since they ultimately
affect contract rates.

Mitigating the Impact to NASA

Efforts by the DCMA to mitigate the cost impact to NASA from Boeing's accounting and
cost allocations procedure changes could result in NASA receiving up to $64.7 million in
contract offsets. These offsets would result from DCMA’s application of CAS 9903.201-
4(a)(4), which provides for negotiations between the contractor and the contracting
officer to determine the terms and conditions under which a change may be made to a
cost accounting practice provided that the agreement will not increase the costs paid by
the Government. As stated previously, the DCAA determined that Boeing’s accounting


19
  This information was contained in the February 3, 2000, DCAA Audit Report Number 4381-
1999F19500004, "Report on Audit of Boeing Company Offices' General Dollar Magnitude Cost Impact
Proposal for Cost Accounting Practice Changes Associated with Original and Revisions 99A, 99B, and
99C, effective 1 January 1999."


                                                  8
changes were not considered desirable or necessary, did not represent operational
economies or efficiencies, and were not necessary to meet Boeing’s organizational
structure.

DCMA asked Boeing to identify the impact to its Government contracts since the
accounting and cost allocations procedure changes resulted in significant cost increases.
DCMA provided us with Boeing’s estimates and the DCAA audit of the estimates. Using
the offset procedure outlined in the CAS whereby positive impacts resulting from the
changes are used to offset the negative impacts, the DCMA determined that NASA is due
$64.7 million from Boeing’s changes in accounting and cost allocation procedures. The
DCMA has yet to negotiate these amounts with Boeing. DCMA officials told us the
amounts were both reasonable and supportable and invited NASA participation in the
negotiations. NASA's Associate Administrator for Procurement or his designated
representative should participate in any negotiations with Boeing involving the offsets to
ensure the Agency's interests are adequately protected and that the maximum offset
possible is received.

Other Potential Material Impacts

The DCAA has scheduled an audit of Boeing’s three main defense businesses (the
Military Aircraft and Missiles Group, the Space and Communications Group, and the
Phantom Works) to determine whether they meet the definition of a business segment
and are actually operating as such. DCAA is concerned that the segments may not
actually be operating as separate business units. Consequently, some of the costs
allocated to contracts by the segments would not be allowable. Should DCAA’s audit
confirm that Boeing’s defense units do not operate as segments, much of the impact from
the cost allocation changes will likely be negated. 20 Further, such findings would result
in additional contract cost offsets for NASA. 21 NASA should monitor the progress of
DCAA’s audit to determine whether the Agency is entitled to additional contract offsets.

Recommendations, Management's Response, and Evaluation of Response

The Associate Administrator for Procurement, should:

         1. Request the DCAA to audit and validate the amount of actual savings
         accruing to NASA from Boeing's restructuring.

20
   DCAA representatives provided this information at a June 1, 2000, meeting with the NASA Office of
Inspector General at Boeing’s Headquarters in Seattle, Washington. The DCAA representatives told us
that a finding that Boeing’s defense units did not operate as true segments would essentially “undo” the
cost allocation pools established prior to the restructuring. Consequently, the change (Boeing’s accounting
change that had the largest impact on NASA) to a value-added basis cost allocation from the total-cost-
input method would be negated.
21
   DCAA representatives stated that DCAA would have to calculate the net difference between Boeing’s
allocations using methods prior to its restructuring and those in effect after its restructuring. This
difference will then serve as the basis for any adjustment necessary to offset the increased costs resulting
from Boeing’s change in cost allocation methods.


                                                     9
Management's Response. Concur. Management believes that it is not necessary to
request a DCAA audit to determine actual savings to NASA because there is a statutory
requirement for an annual report to DoD beginning with the year of certification.
Management will work with the Boeing Defense Corporate Executive to track external
restructuring savings to NASA on an annual basis as is done for DoD. The complete text
of management’s response is in Appendix G.

NASA management also provided extensive comments on the finding that we address in
Appendix H.

Evaluation of Management's Response. Management’s planned actions are not
responsive to the recommendation. A DCAA audit is necessary because the actual
savings from Boeing’s restructuring could be less than projected. We believe that it
would be more valuable to the Agency to have actual savings data rather than estimates
in order to use that data in determining whether NASA is actually receiving a benefit
from the cost of the restructuring. The benefit of knowing whether actual savings are
accruing to NASA is worth requesting DCAA to perform the audit. Therefore, we
request that management provide additional comments to address the need for a DCAA
audit to validate the amount of actual savings accruing to NASA. The additional
comments should include an estimated completion date for planned corrective actions.
The recommendation is unresolved and will remain undispositioned and open for
reporting purposes.

   2. Determine whether the savings accruing to NASA are at least twice the costs
   of restructuring. The Associate Administrator or his designated representative
   should use the results of DCAA’s audit (Recommendation 1) to make this
   determination and participate in negotiations as necessary to ensure the 2-to-1
   savings are achieved.

Management's Response. Concur. Management will work with the Boeing Defense
Corporate Executive to annually track the restructuring savings accruing to NASA.
Management does not guarantee that the savings accruing to NASA as a result of
Boeing’s restructuring will be at least twice the restructuring costs because there is no
requirement that actual savings exceed actual costs by 2-to-1 (see Appendix G).

Evaluation of Management's Response. Management’s planned actions are not
responsive to the recommendation. The planned actions do not constitute a reasonable
effort to ensure that the Agency realizes savings of at least twice the costs of the
restructuring. While we agree there is no statutory provision that actual savings be
realized, we believe that actual savings should be generated because NASA is paying for
restructuring costs and that the actual savings should at least approximate the savings that
Boeing estimated. However, as stated in the report, there is no comparison of the actual
savings generated to the estimates being reported. Therefore, we request that
management provide additional comments that address whether NASA is actually
achieving a 2-to-1 savings-to-cost ratio as a result of the restructuring. The additional



                                             10
comments should include an estimated completion date for planned corrective actions.
The recommendation is unresolved and will remain undispositioned and open for
reporting purposes.

   3. Pursue legislation for NASA similar to that provided to the DoD (Section
   8115 of the DoD Appropriations Act of 1997) requiring that external
   restructurings yield a 2-to-1 savings-to-cost ratio for NASA.

Management's Response. Concur. Management believes that the pursuit of legislation
is not the best approach to take and that such legislation could work against the
restructuring process by creating separate requirements for NASA and DoD contracts.
Management proposed to pursue an agreement with DoD to achieve, in future
restructurings involving NASA contracts, the same 2-to-1 savings-to-cost ratio required
for DoD (see Appendix G).

Evaluation of Management's Response. Management's planned actions are responsive
to the recommendation. The recommendation is resolved but will remain undispositioned
and open for reporting purposes until corrective actions are completed.

   4. Monitor any future external restructurings involving NASA contractors to
   ensure that they meet the 2-to-1 savings-to-cost ratio.

Management's Response. Concur. Management plans to monitor future external
restructurings that involve a significant dollar amount of NASA contracts. However,
management does not guarantee that a 2-to-1 savings-to-cost ratio will be obtained for
NASA (see Appendix G).

Evaluation of Management's Response. Management's planned actions, in conjunction
with its plans (management’s response to recommendation 3) to pursue an agreement
with the DoD to achieve 2-to-1 savings in future restructurings that involve NASA
contracts, is responsive to the recommendation. The recommendation is resolved but will
remain undispositioned and open for reporting purposes until corrective actions are
completed.

   5. Require the responsible contracting officers (or the Associate Administrator’s
   designated representative) for NASA’s major existing contracts with Boeing to
   participate in the negotiations to mitigate impacts from Boeing’s accounting
   changes to ensure NASA receives the maximum offset possible (see Appendix F
   for details on the potential benefits of $64.7 million).

Management's Response. Concur. The Administrative Contracting Officer is
responsible for administration of the CAS. For most NASA contractors, the
Administrative Contracting Officer is a representative of the DCMA. In those cases in
which NASA would be significantly affected by a contractor’s proposed accounting
changes, the Agency should participate. NASA’s participation could take a variety of



                                            11
forms such as providing input to the Administrative Contracting Officer, attending
meetings, participating in teleconferences, or some combination of these activities (see
Appendix G).

Evaluation of Management's Response. Management’s planned actions are not
responsive to the recommendation. Management did not indicate whether it would
participate in the particular negotiations with Boeing and the DCMA to mitigate the
impacts from Boeing’s accounting changes. NASA has an opportunity to recover as
much as $64.7 million in contract offsets that are actual dollar savings for NASA and that
would have a positive impact on the Agency’s budget. Furthermore, the Boeing Defense
Corporate Executive told us that he would welcome NASA’s participation in these
negotiations. NASA's active participation in these negotiations is critical to ensure not
only that the Agency's interests are appropriately represented but also that the maximum
amount of dollar savings is obtained. Therefore, we request that management provide
additional comments that address the specific role the Agency will take in the
negotiations to mitigate the impacts from Boeing's accounting changes. The comments
should also indicate a planned completion date for the corrective actions and provide
specific comments on the potential $64.7 million cost avoidance. The recommendation is
unresolved and will remain undispositioned and open for reporting purposes.

   6. Request DCAA to provide a specific breakout of effects on NASA in its audit
   of Boeing’s business segments and to take appropriate action based on the
   results.

Management's Response. Concur. Management stated that the recommendation is
premature because the referenced audit is still in progress. It is DCAA's opinion as to
whether Boeing's segments are operating as separate business units with the Boeing
Defense Corporate Executive being responsible for determining whether DCAA's
recommendation is correct. Management will monitor the results of DCAA's audit and
participate as appropriate (see Appendix G).

Evaluation of Management's Response. Management’s planned actions are not
responsive to the recommendation. Management plans to defer to the DCAA and Boeing
Defense Corporate Executive to resolve any issues identified by the audit. We did not
recommend a separate audit but rather for DCAA to perform additional audit procedures
that would provide a specific breakout of the effects on NASA of its audit of Boeing’s
business segments. A finding that Boeing’s defense units did not operate as separate
business segments could result in additional contract offsets to NASA. Therefore, we
request that management provide additional comments on requesting that DCAA provide
a specific breakout of effects on NASA from the audit of Boeing's business segments.
The comments should also include an estimated completion date for the planned
corrective actions. The recommendation is unresolved and will remain undispositioned
and open for reporting purposes.




                                            12
             Appendix A. Objectives, Scope, and Methodology

Objectives

The overall objective of the audit was to determine whether the advance agreement
between Boeing and the DCMA was equitable to NASA. Specific objectives were to
determine whether:

•   the advance agreement negotiated by the DCMA met all Federal requirements and

•   NASA’s interests were adequately considered and addressed under Boeing’s
    restructuring.

Scope and Methodology

To determine whether the advance agreement between Boeing and the DCMA was
equitable to NASA, we:

•   Researched applicable regulations, requirements, and guidance including Section 818
    of the National Defense Authorization Act of 1995 (Public Law 103-337); 10 United
    States Code section 2325; Section 8115 of the DoD Appropriations Act for Fiscal
    Year 1997; CAS (48 Code of Federal Regulations 99); FAR Part 31, Section 109;
    DFARS subpart 231.205-70; and the NASA FAR Supplement.

•   Obtained and reviewed the Boeing/DCMA advance agreement and Boeing’s cost
    proposal and other applicable supporting documentation.

•   Obtained and reviewed the DCAA audit report of the Boeing restructuring cost
    proposal and other applicable DCAA reports and documents.

•   Met with Johnson procurement personnel, including the Director of Procurement, and
    discussed NASA’s involvement with the advance agreement and impacts resulting
    from its execution.

•   Met with DCMA and DCAA personnel including the DCMA Corporate
    Administrative Contracting Officer and discussed the advance agreement, Boeing's
    cost proposal, and their impacts to NASA.

•   Visited the Downey facility, and met with both Boeing and NASA personnel at the
    facility.




                                           13
Appendix A

Management Controls Reviewed

We reviewed management controls related to the development and execution of advance
agreements including DoD appropriations, public laws, the FAR and DFARS. We also
reviewed management controls related to contractor compliance and disclosure with the
CAS (48 CFR 99). These controls are adequate to meet the purpose intended. For this
audit, compliance with these controls was primarily external to NASA. However, NASA
does not have similar controls related to external business restructurings in the NASA
FAR Supplement. We recommend that NASA pursue legislation to provide similar
benefits from corporate restructurings to that provided to the DoD and contained in the
DFARS.

Audit Field Work

We performed the audit field work from April through July 2000 at the Johnson Space
Center; the Marshall Space Flight Center; and Boeing Company Headquarters in Seattle,
Washington. We performed the audit in accordance with generally accepted government
auditing standards.




                                          14
            Appendix B. Projected Savings and Costs by Customer
                       Due to Boeing’s Restructuring


                                  Boeing Cost Proposal Data
                                        (in millions of dollars)

Beneficiary                Gross Savings               Restructuring Cost                  Net Savings

Boeing1                         $391                            $113                           $278
DoD2                             376                             103                            273
NASA                              72                              22                             50
Totals                          $839                            $238                           $601


                 Net Savings Attributable to the Downey Closure                            3




         Gross Savings               Restructuring Costs                 Net Savings

                $279.6                        $60.3                           $219.3

1
  The cost proposal specifically identifies Boeing’s Commercial Aircraft Group and its Shared Services
Group.
2
  DoD’s share of the potential savings and costs is adjusted to represent net present value of $320.6 million
and $90.3 million, respectively.
3
  We obtained this data from Boeing’s Cost Proposal Work Breakdown Structure Number 15.04.




                                                      15
Appendix C. NASA/Boeing Contracts Affected by Boeing’s Changes in
      Accounting Methods and Cost Allocation Methodology


                                     Cost Impact
                                (in millions of dollars)

                 Contract                      FY 99       FY 00   Out-Years    Total

Space Flight Operations Contract
(subcontract to United Space Alliance)
NAS9-20000                                       $8.6       $4.2        $5.1    $17.9

Payload Ground Operations Contract
NAS10-11400                                        2.7       1.1         0.0      3.8

Space Shuttle Main Engine
NAS8-40000                                       23.4       18.1        17.2     58.7

International Space Station
NAS15-10000                                      16.4        8.0         6.2     30.6

Space Shuttle Sustaining Engineering
NAS9-140002                                        4.1       0.0         0.0      4.1

Totals                                          $55.2      $31.4       $28.5   $115.1




                                          16
      Appendix D. Additional Information on the Boeing Company

After its 1996 acquisition of the Aerospace and Defense Units of Rockwell International
Corporation and its subsequent 1997 merger with McDonnell Douglas, the Boeing
Company became the largest aerospace company in the world, employing more than
195,000 people. Its major operations are centered in the Seattle-Puget Sound area of
Washington State; Southern California; Wichita, Kansas; and St. Louis, Missouri.
Boeing is organized into four major business segments: the Boeing Commercial Airplane
Group; the Space and Communications Group; the Military Aircraft and Missile Systems
Group; and the Shared Services Group.

Boeing is NASA’s largest contractor. NASA’s fiscal year 1999 contract awards to
Boeing totaled about $36.4 billion (total award value of contracts including options),
while fiscal year 1999 obligations related to Boeing contracts totaled about $1.3 billion.
NASA’s major contracts with Boeing include the International Space Station managed by
the Johnson Space Center, the Space Flight Operations Contract (as a subcontractor to the
United Space Alliance) also managed by Johnson, the Payload Ground Operations
Support managed by the John F. Kennedy Space Center, and the Space Shuttle Main
Engine managed by the George S. Marshall Space Flight Center. NASA is Boeing’s
largest non-DoD Government customer. The heritage Boeing North America portion of
the company (formerly Rockwell International/Rocketdyne) operated a facility in
Downey, California, where the Space Shuttle fleet was conceptualized, designed, and
built beginning in the early 1970’s. Total estimated contract work performed for NASA
at the Downey facility from the 1970’s to present was about $8 billion. However, after
Boeing’s restructuring, only a small amount of NASA work related to the Space Shuttle’s
cryogenics remains at Downey. This function will be relocated as soon as a new
cryogenic facility is completed and certified.




                                            17
              Appendix E. Summary of Prior Audit Coverage

“Performance Management of the International Space Station Contract,” Report
Number IG-00-007, February 16, 2000. The report addressed NASA’s management of
the International Space Station contract and Boeing’s cost overruns of $203 million. The
report states that Boeing-projected estimates of cost overruns were unrealistically low
and that incentives paid were not earned. In addition, the report attributed a portion of
the cost overruns on the contract to Boeing’s reorganization and restructuring associated
with its acquisition of Rockwell International and its merger with McDonnell Douglas.
We made a total of 14 recommendations to strengthen the International Space Station
contract management and minimize the impacts of Boeing’s restructuring activities.
Management concurred or partially concurred with the findings and recommendations
and agreed to take corrective action on all 14 recommendations.

“Boeing Indirect Cost Allocations to Space Station Contract,” Report Number
JS-96-001, December 12, 1995. The report addressed NASA’s reimbursement to
Boeing for indirect costs for which it received no benefit. Essentially, the Space Station
contract received an inequitable allocation of indirect costs from Boeing’s Engineering
Resource and Engineering Computing Cost Centers. The DCAA and the Office of
Inspector General found these allocations did not comply with the provisions of CAS
418. We recommended that the Associate Administrators for Procurement and Space
Flight work with the DCMA to ensure indirect costs were appropriately allocated to the
Space Station contract in accordance with CAS 418. Management concurred and
indicated that it would monitor the Defense Administrative Contracting Officer’s
proposed corrective actions and review the feasibility of suspending payments for the
excess allocations of cost.

“Earth Observing System (EOS) AM Spacecraft Planning and Management
Restructuring Funding Authorization (RFA),” Report Number GO-94-004,
March 31, 1994. NASA did not receive cost reductions from a restructuring of General
Electric’s Aerospace Group and a subsequent advance agreement between General
Electric and the Defense Logistics Agency. NASA paid about $14 million in
restructuring funding over a 4-year period and, in turn, should have received savings
through reduced contract costs. However, the savings (contract price reductions) never
materialized. We recommended that the Center responsible for the contract have the
Defense Logistics Agency review the advance agreement and determine whether any
savings were realized. Management conditionally concurred indicating that it had
benefited from the restructuring agreement and that it would coordinate with the Defense
Administrative Contracting Officer to monitor the savings resulting from the agreement.




                                            18
   Appendix F. Calculation of Potential Funds That Could Be Put to
                             Better Use

Recommendation 5 results in a potential $64.7 million in funds that NASA can put to
better use. The DCMA determined the amount using audit information developed by the
DCAA. The amount represents the monetary harm to NASA from Boeing's changes in
accounting and cost allocation methods. The amount has yet to be negotiated with
Boeing. When negotiations are completed and finalized, the amount negotiated will
represent a true monetary savings to NASA and will be realized through offsets to current
Boeing contract billings.




                                           19
Appendix G. Management's Response




               20
     Appendix G




21
                  Appendix G




See Appendix H,
OIG Comment 1




See Appendix H,
OIG Comment 2



See Appendix H,
OIG Comment 3



See Appendix H,
OIG Comment 4




                               22
     Appendix G




            See Appendix H,
            OIG Comment 5



            See Appendix H,
            OIG Comment 6




            See Appendix H,
            OIG Comment 7




23
                   Appendix G




 See Appendix H,
 OIG Comment 8




 See Appendix H,
 OIG Comment 9




See Appendix H,
OIG Comment 10




See Appendix H,
OIG Comment 11




                                24
     Appendix G




            See Appendix H,
            OIG Comment 12


            See Appendix H,
            OIG Comment 13

            See Appendix H,
            OIG Comment 14




25
                  Appendix G




See Appendix H,
OIG Comment 15


See Appendix H,
OIG Comment 16




See Appendix H,
OIG Comment 17




See Appendix H,
OIG Comment 18




                               26
     Appendix G




27
Appendix G




             28
     Appendix G




29
Appendix G




             30
          Appendix H. Office of Inspector General Comments on
                       Management's Response

The NASA Office of Procurement provided the following comments in response to the
draft report. Our responses to the comments are also presented.

Management's Comment. The findings and other information in the report convey a
general lack of understanding of the restructuring process and cost accounting practice
changes. This lack of understanding is demonstrated in three areas that are repeated
throughout the audit report: the savings-to-cost ratio should be based on the combined
results of the restructuring and cost accounting practice changes; there is little assurance
that any actual savings will be realized from the Boeing restructuring; and NASA has not
benefited from the restructuring.

1. Office of Inspector General (OIG) Comments. As stated in the “Objectives, Scope,
and Methodology" section of our report, the auditors developed an understanding of the
restructuring process and cost accounting practice changes by researching applicable
regulations, requirements, and guidance including Section 818 of the National Defense
Authorization Act of 1995 (Public Law 103-337); 10 United States Code section 2325;
Section 8115 of the DoD Appropriations Act for Fiscal Year 1997; CAS (48 Code of
Federal Regulations 99); FAR Part 31, Section 109; Defense Federal Acquisition
Regulation Supplement (DFARS) subpart 231.205-70; and the NASA FAR Supplement.
Also, as stated in the report and announced to management at the beginning of the audit,
one of our audit objectives was to determine whether NASA’s interests were adequately
considered and addressed under Boeing’s restructuring. To meet that objective, we
identified all the restructuring issues that had an effect on NASA. In doing so, we
presented an audit report that:

•   Explained how the DCMA administered Boeing’s restructuring and accounting
    practice changes and that the DCMA treated those administrative actions as two
    separate and distinct events.

•   Explained how the restructuring and accounting practice changes were due to
    Boeing's acquisition of Rockwell and its merger with McDonnell Douglas.

•   Identified the amount of savings Boeing expected to generate from closing the
    Downey, California, facility and that NASA’s savings were not based on historical
    workload requirements but on the savings generated at the facility where NASA’s
    workload was being transferred.

•   Presented the net effect of the two events (restructuring and accounting practice
    changes) on NASA and emphasized that unless the savings from the restructuring
    were greater than the costs from the accounting practice changes, NASA will not
    realize any benefit.




                                             31
Appendix H

The net result of these changes was an increase in costs to NASA of $65 million ($50
million net savings from restructuring less $115 million in additional costs from the
accounting changes). This position was supported by DCAA’s affirmation that Boeing’s
accounting practice changes were not desirable to the Government because they appeared
to have shifted costs from commercial to Government work, specifically to NASA
contracts. The $64.7 million in potential contract offsets is evidence of this logic as it
represents both the DCMA’s and DCAA’s efforts to restore NASA to the position it held
with Boeing prior to the implementation of accounting practice changes and the
subsequent restructuring.

Management’s Comment. The OIG commingled two separate statutory and regulatory
administrative actions. The DFARS definition of what constitutes an external
restructuring, which is derived from Section 8115 of the DoD Appropriations Act of
1997, precludes DCMA from considering the Boeing cost accounting practice changes as
part of the external restructuring.

2. OIG Comments. Nothing in the DFARS definition of an external restructuring
precludes cost accounting changes from the category of restructuring activities and, in
fact, quite the opposite is true. The cost accounting changes at issue were a direct
outgrowth of Boeing’s business combination. The accounting changes were clearly
nonroutine, nonrecurring, and extraordinary and were presented to the Government as
being necessary in order to facilitate Boeing’s corporate merger, to improve its future
operations, and to reduce overall costs. Thus, we concluded that cost accounting changes
resulting from business combinations may be, and in this case should have been, included
as an integral part of the restructuring process.

Regardless of how Boeing and the DCMA treated the accounting changes, our report
clearly detailed the DCMA's interpretation of the DFARS definition of restructuring
activities and its separate treatment of Boeing’s accounting practice changes. The report
also showed that Boeing adopted the accounting practice changes as a result of its
acquisition of Rockwell and merger with McDonnell Douglas, prior to submitting its
proposal to restructure to the DCMA. We did not commingle the statutory and regulatory
requirements concerning the restructuring and accounting practice changes. Although
these actions were approved by the appropriate Government agencies, the net result of the
restructuring and accounting changes is increased costs to NASA. Our report quantifies
the net effect of these separate actions on NASA.

Management’s Comment. The OIG arrived at the wrong conclusion, that is, that NASA
did not benefit from the external restructuring.

3. OIG Comments. We concluded that NASA did not benefit from the external
restructuring based on our audit work, which we performed in accordance with generally




                                            32
                                                                               Appendix H

accepted government auditing standards and for which we (1) included an analysis of the
documentation supporting the accounting changes and the advance agreement and
(2) held discussions with NASA procurement, DCAA, and DCMA personnel.

Management’s Comment. There is no information that the DCAA, which audited
Boeing's restructuring proposal, or DCMA management, which approved the Boeing
restructuring proposal, took exceptions to the Boeing Defense Corporate Executive's
separate handling of the restructuring and cost accounting changes.

4. OIG Comments. In a March 1999 letter and February 2000 audit report, the DCAA
stated that Boeing’s accounting practice changes were not considered desirable or
necessary, did not represent operational economies or efficiencies, were not necessary to
meet Boeing’s organization structure, and were not desirable to the Government because
they shifted costs from commercial to Government work, specifically to NASA contracts.
The Boeing Defense Corporate Executive requested both of these DCAA reviews.

Management's Comment. While the OIG is correct that the actual savings from
Boeing's external restructuring could be less than projected, the OIG does not point out
that there is no requirement that actual savings exceed actual costs by a ratio of 2-to-1,
the statutory criterion for DoD approval of a restructuring proposal.

5. OIG Comments. Management’s statement is not true. The draft report specifically
and clearly stated, in seven sentences and in two footnotes, that there is no requirement
that actual savings accruing to NASA exceed actual costs by a ratio of 2-to-1, which is
why we made the recommendation to create such a requirement. Included in the report is
a separate paragraph entitled, “Legislation and Implementing Guidance Regarding
External Business Restructurings” where we state, “NASA does not have legislation and
implementing guidance for external business restructurings similar to the legislation and
guidance applicable to DoD.”

Management’s Comment. If the actual savings and costs turn out to be different than
originally estimated, it has no impact on the restructuring that was approved. In other
words, it cannot be undone because the results do not turn out as projected.

6. OIG Comments. The report specifically detailed how the restructuring savings
estimates were calculated and reported. While we agree there is no statutory provision
that actual savings be realized, we believe a reasonable person would assume that actual
savings should be generated and should approximate the estimates. However, as stated in
our report, DCMA has made no comparison between actual savings generated and the
estimates that Boeing projected. Based on these facts, we believe NASA has little, if any
assurance that it is realizing any actual savings from the restructuring. Despite our
conclusion, the report does not state, nor does it make any inference that the restructuring
agreement be amended.



                                             33
Appendix H

Management’s Comment. An examination of the actual performance for only 19 of the
60 restructuring projects for 1999 was performed to determine the estimated actual
savings for the annual report. As the OIG reported, those 19 projects accounted for more
than 90 percent of the actual reported savings. The implication of the OIG report is that a
much larger percentage of the projects should have been reviewed. However, we believe
that would have been an inefficient use of audit resources that would have provided little,
if any, additional assurance as to the reported savings.

7. OIG Comments. We reported the facts regarding the number of business elements
DCAA audited to validate Boeing’s restructuring savings estimates. The draft report
objectively identified the methods used to develop the estimated restructuring savings.
We did not express an opinion on and the report does not imply a need for DCAA to
perform additional audit work to validate the savings estimates. However, in an effort to
eliminate any perceived implications, we modified the statement in this final report
related to the number of business elements that DCAA audited.

Management's Comment. The OIG does not understand the higher ceiling amount is
intended to provide some relief from the original implementation cost estimates on those
projects not completed at the time of the negotiation and certification.

8. OIG Comments. The negotiated cost ceiling of $327.9 million is 38 percent and
$90.3 million more than the estimates Boeing used to determine the restructuring savings.
We find it an unlikely coincidence that the net present value of DoD's share of the
restructuring costs used to calculate the DoD savings-to-cost ratio also equals $90.3
million. We believe the ceiling represents little more than a "cushion" for inaccuracies in
Boeing's estimates and a means for showing a higher than required savings-to-cost ratio.
Consequently, if the restructuring costs are higher than expected and reach the ceiling
amount, NASA's savings are less than those projected.

Management's Comment. The DCAA review for the 1999 annual report showed that
the savings were in excess of those originally anticipated ($14.3 as opposed to $7.8
million) while the costs were slightly less ($5.5 as opposed to $5.7 million).
Management stated that this information was provided to the OIG during the audit but
was not included in the report.

9. OIG Comments. The data on NASA's savings for 1999 was not made available to
the OIG auditors who conducted this audit. We received this data from an OIG auditor at
Johnson who had received the data from an official at Johnson’s procurement office
regarding another matter. We received this data after the draft report was issued. During
face-to-face meetings with the Boeing Defense Corporate Executive at Boeing’s
Headquarters in Seattle, Washington, on May 31 and June 1, 2000, we specifically
requested information on the savings accruing to NASA from Boeing's restructuring.
The Boeing Defense Corporate Executive and the Defense Corporate Analyst told the



                                            34
                                                                                         Appendix H

OIG auditors during those meetings that specific savings data for NASA were not
calculated because DCMA’s only requirement was to report the DoD savings to
Congress. However, the Defense Corporate Analyst, who told the auditors that this
information did not exist, notified Johnson procurement management of the estimated
amount of NASA savings in two electronic mail messages dated June 1, 2000 - the same
day of our meeting.

The first message, dated June 1, 2000, states:

               DCAA, using the contractor’s data, estimated the NASA participation
               percentage for the Space and Communications Group at about 29.8
               percent for 1999. However, in addition to Space and Communications
               Group specifically, NASA has a very small piece of Aircraft and
               Missiles Group savings and an allocable share of the Company Office’s
               savings. Based on this approach (using the percentage of NASA
               workload), we estimate the external restructuring savings accruing to
               NASA during 1999 total about $14.3 million.

A second message, also dated June 1, 2000, states:

               Using the data furnished by Boeing and the same overall Space and
               Communications Group approach to estimating NASA’s participation,
               it would appear NASA participation in the 1999 costs is about $5.5
               million…. It should be noted that as you “peel the onion” back further,
               and begin looking at customer participation at lower levels
               (segment/location), you probably would come up with slightly different
               answers. Administratively, that would make the process more
               cumbersome and wouldn’t significantly change the data we would
               report to Congress in our Annual report.

Although these messages seem to indicate that savings accrue to NASA, a more thorough
examination indicates that DCAA estimated the savings by using NASA’s workload
participation percentages of 29.8 percent for the Space and Communication Group and
other unidentified methods. DCAA did not use actual savings data. Because of the total
reliance on estimates and percentages in deriving the projected savings, there is no
certainty that the projected amounts mirror any actual savings being generated. We
believe that DCAA should be asked to determine the amount of actual savings accruing
to NASA. This action would provide NASA with some degree of reliance on the
Boeing/DCAA/DCMA estimated savings.

Management's Comment. The OIG states that NASA’s share of the projected Boeing
restructuring savings was not equitable. This position is at the heart of the OIG's
recommendation that NASA pursue legislation mandating a 2-for-1 savings-to-cost ratio
for external restructurings.




                                                 35
Appendix H

10. OIG Comments. The OIG’s recommendation to pursue legislation requiring
equitable treatment as that provided the DoD is a direct result of Boeing’s restructuring
and the request of the NASA Headquarters Office of Procurement.

First, although the DCMA and Boeing agreed to provide NASA the same treatment under
the restructuring as its DoD customers, DCMA and Boeing had no obligation to do so.
We believe that DoD’s existing legislation was not enacted to provide benefits to one
Government agency at the expense of another. However, this is the reality of NASA's
current situation. Our recommendation was made to mitigate the inequity as it currently
exists and to provide NASA the same opportunities (savings) as the DoD when other
contractors chose to restructure.

Second, the OIG originally recommended that the NASA Headquarters Office of
Procurement revise the NASA FAR Supplement to include similar provisions as the
DFARS with respect to external restructurings. Staff from the NASA Office of
Procurement's Contract Management Division told us that they could not make the
suggested changes to the NASA FAR Supplement without the appropriate legislation
allowing them to do so. Therefore, the best course of action was to pursue legislation that
would allow NASA to obtain treatment similar to the DoD with respect to external
restructurings.

Management's Comment. Contrary to the OIG’s report, Boeing's Commercial Aircraft
Group did not benefit at all from the closure of the Downey plant.

11. OIG Comments. Boeing’s commercial interests did benefit to a greater extent than
NASA from Boeing’s restructuring, including the closing of the Downey plant. Boeing’s
August 2, 1999, restructuring proposal broke down the restructuring savings into three
categories as follows:

               Other               DoD                   NASA

            $391 million        $376 million           $72 million
            (47 percent)        (45 percent)           (8 percent)

Boeing’s description of the “other” savings was that it consisted of:

•   Significant near-term fixed-price and fixed-price incentive business already on
    contract.

•   Substantial NASA and Foreign Military Sales business. (NASA’s savings were not
    included in this category.)




                                               36
                                                                              Appendix H

•   Commercial Airplanes. (The proposal stated that because the Commercial Airplanes
    segment is a relatively large segment of the Boeing Company business base, it would
    receive the largest benefit from Boeing’s restructuring savings.)

Based on this information and the fact that NASA’s savings were not based on the
historical percentage of NASA work performed at Downey (80 percent) but on the
projected percentage of work to be performed at the facilities to which Boeing transferred
the work (45 percent), we concluded that Boeing’s commercial interests clearly benefited
to a greater extent than NASA from Boeing’s restructuring and the closing of the
Downey plant.

Management’s Comment. Although NASA did not directly participate in negotiations
with Boeing, the Agency monitored the situation through meetings and teleconferences
with the Boeing Defense Corporate Executive to understand what was taking place.
Furthermore, the Boeing Defense Corporate Executive characterized NASA’s
involvement with the restructuring and cost accounting practice changes to be much
greater than that of any DoD customer, even though DoD had a much greater financial
interest than any other Government customer.

12. OIG Comments. Our report provides a balanced presentation of the facts made
available to the auditors concerning NASA’s participation in Boeing’s restructuring
process. We made repeated attempts to contact the NASA Headquarters’ representative
who was invited to review the advance agreement and obtain any data, information, trip
reports, summaries, or notes he accumulated during his involvement in Boeing's
restructuring process. The NASA Headquarters' representative never responded to our
requests.

The Boeing Defense Corporate Executive told us that he did not invite NASA to
participate in the negotiations for the advance agreement. Johnson personnel told us that
because NASA was not afforded the same legislative requirements as the DoD and
because DCMA chose not to include NASA in the advance agreement negotiations with
Boeing, all they could do was try to “leverage” the DCMA to provide NASA similar
benefits to the DoD. Our position that NASA should have taken a more proactive role in
the negotiations is also supported by the FAR. Specifically, FAR Part 31, section 109,
states that “before negotiating an advance agreement, the Government negotiator shall, as
appropriate, invite the office or agency and the responsible audit agency to participate in
prenegotiation discussions and/or in the subsequent negotiations."

Management's Comment. Johnson’s involvement, as the NASA installation with the
largest Boeing contracts, would have been greater had it not been for the OIG’s request
for them to hold off until the OIG completed its audit work and issued its audit report.
Management expected the report to be issued in the June 1999 timeframe.




                                            37
Appendix H

13. OIG Comments. Management’s statement that the OIG requested Johnson to hold
off on its involvement in the negotiations until the OIG completed its audit in June 1999
is not true. No such request was made during this audit. As stated in Appendix A of this
report, field work on this audit did not begin until April 2000.

Management’s Comment. Johnson’s involvement has continued as evidenced by the
July 2000 meeting it requested in Seattle. The purpose of that meeting, which was held
with Boeing, DCMA, and DCAA, was to discuss NASA’s concerns regarding the
increased costs to the Agency resulting from Boeing’s proposed cost accounting changes.

14. OIG Comments. The OIG’s attendance at this meeting would have been beneficial
to all the parties involved; however, neither Johnson nor DCMA notified the OIG of the
meeting, and we did not receive details from the meeting until after we completed our
audit field work. Upon reviewing the information Boeing presented during those
meetings, we identified the following issues that we did not include in our audit report,
which cause us additional concern. Specifically:

•   Boeing identified a total net impact of $343 million from Boeing’s accounting
    practice changes to its Space and Communications Group (the Group that holds the
    majority of NASA’s major contracts). Our audit identified a total net impact of $128
    million to the Space and Communications Group of which $115 million applied to
    NASA. Thus, the total cost to NASA as a result of the accounting practice changes
    could be much higher than the cost identified in our audit.

•   Boeing identified a $47 million cost shift to NASA resulting from General and
    Administrative cost changes at the heritage Boeing North American (formerly
    Rockwell) sites.

•    Boeing identified an additional $26 million in costs related to employee benefit plans
    that will be allocated to the Space and Communications Group. Our audit report
    addressed the accounting practice changes Boeing adopted prior to approval of the
    advance agreement with the DCMA, which were changes in Boeing’s capitalization
    procedures and cost allocation methods.

•   Boeing inappropriately commingled savings from the restructuring with impacts from
    the accounting changes. Specifically, Boeing identified $24 million in restructuring
    savings accruing from the Downey and Huntington Beach, California; Houston,
    Texas; and Huntsville, Alabama, sites. The Boeing Defense Corporate Executive told
    us that restructuring savings could not be used to offset the impact of the cost
    accounting changes.




                                            38
                                                                              Appendix H

•   The total effect of the accounting changes on NASA’s major contracts with Boeing,
    as presented by Boeing during the meeting did not correlate to Boeing’s General
    Dollar Magnitude Analysis that DCAA used to determine the impact of Boeing’s
    1999 accounting changes on NASA.

•   Boeing identified total restructuring savings to major NASA programs of $68.9
    million through March 2000. The restructuring savings estimates that the DCMA
    provided to Johnson on June 1, 2000, showed NASA’s fiscal year 1999 savings of
    $14.3 million. Thus, the July presentation indicates that Boeing generated
    restructuring savings accruing to NASA of at least $54.6 million during the first 6
    months of fiscal year 2000, an increase of more than 700 percent from fiscal year
    1999, which is highly unlikely.

We believe these points clearly support the need for active NASA participation in
negotiations concerning the accounting changes as well as any future restructurings
involving NASA contractors. These points also support our position that NASA needs
actual data on savings accruing to the Agency to ensure that its interests are adequately
protected as a result of Boeing's restructuring.

Management's Comment. The OIG stated “through active participation in negotiations
with the DCMA and Boeing, NASA has an opportunity to recover about $64.7 million
through future cost reductions which would mitigate some of the advance agreement’s
impact on the Agency.” The OIG again is confusing the external restructuring and the
cost accounting practice changes

15. OIG Comments. The $64.7 million in potential monetary benefits (contract offsets)
results from the accounting practice changes Boeing adopted as a result of its acquisition
of Rockwell International and its merger with McDonnell Douglas. Although the
accounting practice changes were not considered part of the advance agreement, the
changes Boeing implemented were based on its decision to restructure after the
acquisition and merger. Consequently, even though the $64.7 million is not a direct
product of the advance agreement, it is an indirect result of Boeing’s decision to
restructure and the DCMA’s response to that decision under the CAS.

Management’s Comment. The OIG did not mention in the report that in early 1999, the
Boeing Defense Corporate Executive disallowed $13.2 million on NASA contracts
pending the conclusion of the negotiation of the cost accounting practices changes.

16. OIG Comments. We cannot address management’s comments regarding the $13.2
million disallowance by the Boeing Defense Corporate Executive. The disallowance was
not related to any of the evidence we reviewed during the audit, and it does not affect the
$64.7 million in potential monetary benefits.




                                             39
Appendix H

Management's Comment. Boeing chose to reorganize and restructure its operation in
order to combine facilities, operations, and workforce to eliminate redundant capabilities,
improve future operations, and reduce overall costs. These activities took place
irrespective of reimbursement by DoD. However, to receive reimbursement, Boeing had
to comply with the requirements of DFARS 231.205-70, which culminated in the
advance agreement.

17. OIG Comments. We agree and revised the report to show that Boeing could have
reorganized without the DCMA’s approval. However, because Boeing chose to charge
restructuring costs to its Government contracts, the company was required by law to
follow the guidance outlined in DFARS 231.205-70.

Management’s Comment. The report states that “should DCAA’s audit confirm that
Boeing’s four business units do not operate as segments, much of the impact from the
restructuring will likely be negated.” The OIG is incorrect in that the audit covers three,
not four segments, but more important, the 1999 cost accounting changes would be
negated, not the external restructuring.

18. OIG Comments. DCAA’s audit will be performed at the Defense units of Boeing’s
business segments. These units include the Military Aircraft and Missiles Group, the
Space and Communications Group, and the Phantom Works. The audit report has been
revised to reflect that a total of three of Boeing's business segments will be reviewed by
the DCAA and that the cost allocation changes would be negated, not the external
restructuring.




                                             40
                       Appendix I. Report Distribution

National Aeronautics and Space Administration (NASA) Headquarters

A/Administrator
AE/Chief Engineer
AI/Associate Deputy Administrator
B/Chief Financial Officer
B/Comptroller
BF/Director, Financial Management Division
G/General Counsel
H/Associate Administrator for Procurement
HK/Director, Contract Management Division
HS/Director, Program Operations Division
J/Associate Administrator for Management Systems
JM/Acting Director, Management Assessment Division
L/Associate Administrator for Legislative Affairs
M/Associate Administrator for Space Flight
P/Associate Administrator for Public Affairs
R/Associate Administrator for Aerospace Technology
S/Associate Administrator for Space Science
Y/Associate Administrator for Earth Science
Z/Associate Administrator for Policy and Plans

NASA Centers

Director, Ames Research Center
Director, Dryden Flight Research Center
Director, John H. Glenn Research Center at Lewis Field
Director, Goddard Space Flight Center
Director, Jet Propulsion Laboratory
Director, Langley Research Center
Director, John C. Stennis Space Center

Non-NASA Federal Organizations and Individuals

Assistant to the President for Science and Technology Policy
Deputy Associate Director, Energy and Science Division, Office of Management and
 Budget
Branch Chief, Science and Space Programs Branch, Energy and Science Division, Office
 of Management and Budget




                                          41
Appendix I

Non-NASA Federal Organizations and Individuals (Cont.)

Associate Director, National Security and International Affairs Division, Defense
 Acquisition Issues, General Accounting Office
Professional Assistant, Senate Subcommittee on Science, Technology, and Space

Chairman and Ranking Minority Member - Congressional Committees and
Subcommittees

Senate Committee on Appropriations
Senate Subcommittee on VA, HUD, and Independent Agencies
Senate Committee on Commerce, Science, and Transportation
Senate Subcommittee on Science, Technology, and Space
Senate Committee on Governmental Affairs
House Committee on Appropriations
House Subcommittee on VA, HUD, and Independent Agencies
House Committee on Government Reform
House Subcommittee on Government Management, Information, and Technology
House Subcommittee on National Security, Veterans Affairs, and International Relations
House Committee on Science
House Subcommittee on Space and Aeronautics, Committee on Science

Congressional Member

Honorable Pete Sessions, U.S. House of Representatives




                                           42
                NASA Assistant Inspector General for Auditing
                             Reader Survey

The NASA Office of Inspector General has a continuing interest in improving the usefulness
of our reports. We wish to make our reports responsive to our customers’ interests,
consistent with our statutory responsibility. Could you help us by completing our reader
survey? For your convenience, the questionnaire can be completed electronically through
our homepage at http://www.hq.nasa.gov/office/oig/hq/audits.html or can be mailed to the
Assistant Inspector General for Auditing; NASA Headquarters, Code W, Washington, DC
20546-0001.


Report Title: Impact of the Boeing Company's Restructuring on NASA

Report Number:                               Report Date: ______________


Circle the appropriate rating for the following statements.

                                            Strongly                                Strongly
                                            Agree      Agree   Neutral   Disagree   Disagree   N/A
1. The report was clear, readable, and         5        4        3          2          1       N/A
   logically organized.
2. The report was concise and to the           5        4        3          2          1       N/A

   point.
3. We effectively communicated the             5        4        3          2          1       N/A
   audit objectives, scope, and
   methodology.
4. The report contained sufficient             5        4        3          2          1       N/A
   information to support the finding(s)
   in a balanced and objective manner.

Overall, how would you rate the report?
    Excellent           Fair
    Very Good           Poor
    Good

If you have any additional comments or wish to elaborate on any of the above
responses, please write them here. Use additional paper if necessary:_______________
How did you use the report?




How could we improve our report?




How would you identify yourself? (Select one)

       Congressional Staff                      Media
       NASA Employee                            Public Interest
       Private Citizen                          Other:
       Government:            Federal:            State:          Local:


May we contact you about your comments?

Yes: ____________          No: ____________
Name: ____________________________________
Telephone: ________________________________


Thank you for your cooperation in completing this survey.
Major Contributors to the Report

Kevin J. Carson, Program Director, Safety and Technology Audits

Karl Allen, Program Manager

Lamar Brickhouse, Auditor

Nancy Cipolla, Report Process Manager
